N ONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Hittteh States (Knurl of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 26, 2020*
Decided March 27,2020
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-2567
JARED STUBBLEFIELD,
Plain tiff-Appel lant,

v.
CLERK OF THE CIRCUIT COURT OF
COOK COUNTY, etal.,
Defendants-Appellees.

Appeal from the United States
District Court for the Northern District
of Illinois, Eastern Division.
No. 19 C 2715
Matthew F. Kennelly,

Judge.

ORDER
Jared Stubblefield sued the Clerk of the Circuit Court of Cook County, the City of
Chicago, and the State of Illinois for preventing him from obtaining "attorney's fees" for
successfully defending himself against traffic citations in state court. (He later named
the police officer who issued the traffic citations as a defendant.) He alleged that the
state traffic court violated his right of equal protection by not allowing him to seek
’ The appellees were not served with process and are not participating in this
appeal. After examining the appellant's brief and the record, we have concluded that
this case is appropriate for summary disposition. Fed. R. App. P. 34(a)(2)(C).

No. 19-2567

Page 2

$12 million in compensation for his self-representation. After twice dismissing
Stubblefield's complaints with leave to amend, the district court dismissed his second
amended complaint with prejudice as legally frivolous. We affirm the judgment.
On appeal, Stubblefield does not make any legal argument for disturbing the
district court's judgment. But even if we generously construe his pro se appellate brief
as arguing that he stated a nonfrivolous claim, he must lose. In his second amended
complaint Stubblefield invoked Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971), and on appeal he invokes 42 U.S.C. § 1983. On the facts
alleged, he could not state a plausible claim under either theory. Stubblefield has not
sued any individual federal defendants, so Bivens does not apply. See 403 U.S. at 395;
Small v. Chao, 398 F.3d 894, 898 (7th Cir. 2005). And § 1983 establishes a cause of action
only for the deprivation of the "rights, privileges, or immunities secured by the
Constitution and laws" of the United States. Stubblefield, however, has no right under
the Constitution or other federal law to receive attorney's fees (it is unclear from whom)
for defeating his traffic tickets as a pro se litigant. Simply invoking the phraseology of
the Constitution in connection with these alleged facts is insufficient to state a claim.
See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (to state a claim pleading must do more
than offer "labels and conclusions" or conclusory legal assertions); Avila v. Pappas,
591 F.3d 552, 553 (7th Cir. 2010) (simply uttering the word "Constitution" is insufficient
even to establish federal subject-matter jurisdiction). The district court was correct to
dismiss this case as lacking in merit.
AFFIRMED

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
March 27, 2020

Before:

DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567

v.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees

District Court No: l:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly

The judgment of the District Court is AFFIRMED in accordance with the decision of this court
entered on this date.
form name: c7_FinalJudgment(form ID: 132)

Case: l:19-cv-02715 Document#: 28 Filed: 10/07/19 Page 1 of 1 PagelD #:70

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Jared Stubblefield,
Plaintiff,
v.
Clerk of Circuit Court, et al.,
Defendants.

)
)
)
)
)
)
)

Case No: 19 C 2715

Judge: Kennedy

ORDER
It has come to the Court's attention that plaintiff has filed a motion for leave to appeal in
forma pauperis. The Court denies the motion [26], because the appeal is legally
frivolous. Plaintiff is seeking to recover an "attorney fee" in the amount of $12,000,000
for successfully defending himself—without an attorney—on traffic citations in state
court. Plaintiff does not allege that he was arrested, detained, or charged in violation of
his constitutional rights; rather he alleges only that he is entitled to an "attorney fee" for
defending himself as a matter of equal protection. That makes no sense; if he had
been represented by counsel, he would not have been entitled to attorney’s fees for a
successful defense, so there is no conceivable equal protection violation in denying him
compensation for defending himself. And plaintiff cites no other facts or law that would
suggest any viable federal claim. Both the underlying lawsuit and the appeal are
frivolous. The Clerk is directed to transmit a copy of this order to the United States
Court of Appeals for the Seventh Circuit (7th Cir. Case No. 19-2567).

Date:

10/7/2019

MATTHEW F. KENNELLY
United States District Judge

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

CIRCUIT RULE 3(b) NOTICE
August 13,2019
JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567

v.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al„
Defendants - Appellees

District Court No: l:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly
Clerk/Agency Rep Thomas G. Bruton
Circuit Rule 3(b) empowers the clerk to dismiss an appeal if the docket fee is not paid within
fourteen (14) days of the docketing of the appeal. This appeal was docketed on
August 13, 2019. The District Court has indicated that as of August 13, 2019, the docket fee has
not been paid. Depending on your situation, you should:
1.

2.

Pay the required $500.00 docketing fee PLUS the $5.00 notice of appeal filing
fee to the District Court Clerk, if you have not already done so. The Court of
Appeals cannot accept this fee. You should keep a copy of the receipt for your
records.
File a motion to proceed on appeal in forma pauperis with the District Court, if
you have not already done so. An original and three (3) copies of that motion,
with proof of service on your opponent, is required. This motion must be
supported by a sworn affidavit in the form prescribed by Form 4 of the
Appendix of Forms to the Federal Rules of Appellate Procedure (as amended
12/01/2013), listing the assets and income of the appellant(s).

3.

If the motion to proceed on appeal in forma pauperis is denied by the district
court, you must either pay the required $500.00 docketing fee PLUS the $5.00
notice of appeal filing fee to the District Court Clerk, within fourteen (14) days
after service of notice of the action to the district court, or within thirty (30)
days of that date, renew your motion to proceed on appeal in forma pauperis
with this court.

If the motion is renewed in this court, it must comply with the terms of Fed.R.App.P. 24(a).
If one of the above stated actions is not taken, the appeal will be dismissed.

form name: c7_DC_Fee_Notice_Sent(form ID: 158)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312)435-5850
www.ca7.uscourts.gov

CIRCUIT RULE 3(b) FEE NOTICE
October 7, 2019
JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567

v.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees

District Court No: l:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly
Clerk/Agency Rep Thomas G. Bruton
This court's records indicate that on October 7, 2019 the District Court denied your motion to
proceed in forma pauperis.
Pursuant to Federal Rule of Appellate Procedure 24(a),
WITHIN THE NEXT THIRTY (30) DAYS YOU MUST EITHER:
1.

2.

Pay the required $500.00 docketing fee PLUS the $5.00 notice of appeal filing
fee ($505.00 TOTAL) to the District Court Clerk. The Court of Appeals cannot
accept this fee. You should keep a copy of the receipt for your records.
File a motion to proceed on appeal in forma pauperis with the Court of
Appeals. An original and three (3) copies of that motion, with proof of service
on your opponent, is required. This motion must be supported by a sworn
affidavit in the form of a sworn statement listing your assets and income.

IF ONE OF THE ABOVE ACTIONS IS NOT TAKEN WITHIN 30 DAYS FROM THE DATE
LISTED ABOVE, YOUR CASE WILL BE DISMISSED, PURSUANT TO CIRCUIT RULE
3(b).
form name: c7_Rule3b_Notice_Sent(form ID: 145)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
December 19,2019
Before
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 19-2567

JARED STUBBLEFIELD,
Plaintiff - Appellant
v.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al.,
Defendants - Appellees
.

.. i-

r-

.< -

■

•-

, < • ••

District Court No: l:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly

Upon consideration of the AFFIDAVIT ACCOMPANYING MOTION FOR
PERMISSION TO APPEAL IN FORMA PAUPERIS, filed on October 15, 2019, by the
pro se appellant,
IT IS ORDERED that the motion for leave to proceed on appeal in forma
pauperis is DENIED. The appellant has not made a potentially meritorious argument
that the district court erred in dismissing the case for failure to state a claim. Appellant
shall pay the required docketing fee within 14 days, or else this appeal will be dismissed
for failure to prosecute pursuant to Circuit Rule 3(b).

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
vsrww.ca7.uscourts.gov

BRIEFING ORDER
December 30, 2019
JARED STUBBLEFIELD,
Plaintiff - Appellant
No. 19-2567

v.
CLERK OF THE CIRCUIT COURT OF COOK COUNTY, et al„
Defendants - Appellees

pngmatangCaseinforatataom ^.jv*,

%

District Court No: l:19-cv-02715
Northern District of Illinois, Eastern Division
District Judge Matthew F. Kennelly

This court has received notice from the district court that the appellant paid the required
docketing fee.
Briefing will now proceed as follows:
1.

The Appellant's brief of Jared Stubblefield will be due by January 29, 2020 for 19-2567.

NOTE:
Important Scheduling Notice!
Hearing notices are mailed shortly before the date of oral argument. Criminal appeals are scheduled shortly after the
filing of the appellant's main brief; civil appeals are scheduled after the filing of the appellee's brief. If you foresee
that you will be unavailable during a period in which your appeal might be scheduled, please write the clerk
advising him of the time period and the reason for your unavailability. The court's calendar is located at
http://www.ca7.uscourts.gov/cal/argcalendar.pdf. Once an appeal has been scheduled for oral argument, it is very
difficult to have the date changed. See Cir.R. 34(e).

